<html>
<title> - KEEPING TERRORISTS OFF THE PLANE</title>
<body><pre>[Senate Hearing 109-760]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-760
 
                    KEEPING TERRORISTS OFF THE PLANE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2006

                               __________

                          Serial No. J-109-107

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
32-148                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4

                               WITNESSES

Ford, Jess T., Director, International Affairs and Trade, 
  Government Accountability Office, Washington, D.C..............    18
Laylagian, Leon, Executive Vice President, Passenger-Cargo 
  Security Group, Washington, D.C................................    20
Rosenzweig, Paul S., Counselor to the Assistant Secretary for 
  Policy, and Jayson P. Ahern, Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, Department of 
  Homeland Security, Washington, D.C.............................     5

                       SUBMISSIONS FOR THE RECORD

Ford, Jess T., Director, International Affairs and Trade, 
  Government Accountability Office, Washington, D.C., statement..    26
Laylagian, Leon, Executive Vice President, Passenger-Cargo 
  Security Group, Washington, D.C., statement....................    51
Rosenzweig, Paul S., Counselor to the Assistant Secretary for 
  Policy, and Jayson P. Ahern, Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, Department of 
  Homeland Security, Washington, D.C., statement.................    56


                    KEEPING TERRORISTS OFF THE PLANE

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2006

                              United States Senate,
        Subcommittee on Terrorism, Technology and Homeland 
                                                  Security,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:41 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl and Feinstein.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. This hearing of the Judiciary Committee's 
Subcommittee on Terrorism, Technology, and Homeland Security 
will come to order.
    The subject of our hearing today is called ``Keeping 
Terrorists Off the Plane,'' a simple title but one that is of 
the utmost importance, as was illustrated by events in Great 
Britain just about 3 weeks ago, and as we approach the fifth 
anniversary of September 11th next Monday.
    We have a distinguished panel. Paul Rosenzweig is Counselor 
to the Assistant Secretary for the Policy Directorate of the 
Department of Homeland Security. He is also a law professor and 
published author with a background in litigation and public 
policy.
    Jay Ahern is the Assistant Commissioner in the Office of 
Field Operations at U.S. Customs and Border Protection. He was 
appointed to the position in March 2003 and oversees an 
operations budget of $2.4 billion and over 24,000 employees. He 
has been in public service for over 30 years.
    On the second panel, we have Jess Ford, the Director of 
International Affairs and Trade at the Government 
Accountability Office, GAO. During his over 30 years of service 
with GAO, he has directed the completion of numerous studies on 
national security and border issues for Congress, and we have 
one such study that we will be talking about today. And I will 
leave the introduction of Mr. Leon Laylagian to Senator 
Feinstein, but I want to thank him for traveling from New 
Hampshire to be with us today.
    If anyone needs a reminder of what is at stake in the war 
against terrorists, visit the international arrival gate of any 
large airport in the United States. The arrivals board will 
show incoming flights from places like Mexico City, Tokyo, 
Paris, Sydney, Rio, Manila, Tel Aviv, Montreal, London. There 
will be a crowd of people waiting outside the security area to 
pick up passengers from those flights. And the crowd will be 
made up of many different kinds of people, all carefully 
watching the stream of passengers for a familiar face, whether 
it is a grandparent, mother or father, child, friend, business 
associate. It is a place of reunions and embraces and laughter.
    Of course, if the terrorists had their way, none of these 
people would make it to the gate alive. Given the chance, the 
would detonate explosive aboard an aircraft or attempt to seize 
control of an aircraft and drive them into targets on the 
ground.
    We have to be clever in this war on terror--more clever 
than the terrorists. We have to know how to improve the 
security of international flights without unnecessarily 
disrupting travel for the many millions of people who fly into 
the United States each year, and without unnecessarily 
interfering with the work that commercial air carriers perform 
so well.
    Obviously, one of the best places to start is by simply 
keeping terrorists off of airplanes. How do we do that? How 
well do we do it? And what do we need to do to improve?
    Well, DHS has three primary tools at its disposal to screen 
passengers before they get on international flights. Each of 
these tools is in transition or experiencing problems. The 
first of these is the passenger name record, PNR, data. In the 
Aviation and Transportation Security Act of 2001, Congress 
mandated that air carriers share PNR data with U.S. border 
officials so they can get a look at the information collected 
when a passenger is booking a flight, run that data against 
terrorist and criminal watchlists, and assess risk.
    Unfortunately, the European parliament has successfully 
challenged DHS' agreement with the European Union Commission to 
obtain PNR data on flights originating in Europe, and DHS and 
the EU are up against a September 30th deadline to attempt to 
reach a new agreement.
    The second tool is the Advanced Passenger Information, 
System, or APIS. The information transmitted to the Department 
of Homeland Security by air carriers using APIS includes 
biographical data from passports presented by travelers, which 
CBP bounces off its terrorist and law enforcement databases. 
The problem is under the current regulation air carriers are 
permitted to transport that data up to 15 minutes after 
takeoff. That is 15 minutes too late if you have terrorists 
like those apprehended in the London bomb plot in August who 
want to simply blow up the aircraft in flight.
    The Intelligence Reform and Terrorism Prevention Act of 
2004 required DHS to issue regulations allowing for pre-
departure vetting of passengers. DHS has published that 
regulation for comment, but it will not take effect until some 
time in October or later.
    The third tool is DHS' Immigration Advisory Program, the 
IAP, which places CBP officers in foreign airports to examine 
the travel documents that passengers are carrying and advising 
airlines who is not likely to be admitted to the United States. 
They apparently do a very good job of weeding out travelers 
within invalid or expired visas and fake passports and could 
play an important role in deterring terrorists. However, there 
are presently only three IAP teams stationed abroad in London, 
Amsterdam, and Warsaw, with Tokyo set to come online in 
October. That is too few airports, and DHS needs to 
aggressively expand the program.
    We will also discuss today the Visa Waiver Program. The 
Visa Waiver Program allows approximately 16 million foreign 
nationals from 27 countries to enter the United States each 
year without first obtaining a visa. The program is extremely 
beneficial to the United States and our friends in the 
international community, but it poses a severe security 
vulnerability because visa waiver travelers are not interviewed 
and fingerprinted by consular offices before getting on planes, 
as those who do get a visa are.
    Just this week, the Government Accountability Office issued 
a report raising serious issues about DHS' oversight of this 
program. Senator Feinstein and I just briefly talked about this 
on the floor a moment ago. This has been one of her chief areas 
of concern, and we are going to want to examine what steps DHS 
is taking to mitigate risks in this program. It is fortunate 
that countries participating in the program will be required 
after October 26th to issue their nationals improved e-
passports, which are machine readable, tamper resistant, and 
carry a digital photograph and an integrated chip, but on the 
downside, plenty of old grandfathered passports, many of them 
stolen or altered, and these will continue to be accepted for 
international travel.
    The bottom line at this point, nearly 5 years after the 
horrible incidents of September 2001, is that while we have 
taken a lot of steps to improve the security of our country, 
and in particular, travel from abroad on aircraft, there is 
obviously still a long way to go. And we know that terrorists 
have not been quiet during this period of time because we have 
too much information about plots in the works or disrupted 
plots that suggest that they intend to take advantage of our 
vulnerabilities. What this means is that everybody who is 
working this problem in the Government of the United States, 
including those of us in Congress, have got to do everything we 
can to identify where these creases in the system are, where 
the terrorists might attempt to exploit our open and 
wonderfully free environment for their horrible deeds and find 
ways to close those creases or close those loopholes. And the 
purpose of this hearing today is to focus on just some aspects 
of the problem so that as we approach this fifth anniversary, 
we can continue to not only engage in the oversight that this 
Committee has done, but also to propose any legislation or 
administrative fixes or anything else that we need to do to 
better secure our country.
    Now I will turn the microphone over to Senator Feinstein. 
There has been nobody who has been more focused on national 
security, not only since September 11, 2001, but before then. I 
had occasion to review the list of hearings that we held before 
September 11th, and I do not want to say that we told you so, 
but Senator Feinstein and I and others had noticed a lot of 
things that were not right about the security and about the 
threats that existed to the United States. And it is no 
surprise, therefore, that some of the ideas that we had were 
very quickly passed into law after September 11th. But we did 
not get a whole lot of attention paid to them before.
    So I could not be more privileged to have a partner in this 
effort more capable and more committed than Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
appreciate those comments, and as you know, it has been a 
delight for me to work with you.
    I share your concerns on the Visa Waiver Program and have 
read the GAO report and am very concerned. You are correct, we 
have 27 countries, 15 million people coming in a year. The US-
VISIT Program knows who comes in, but they do not know who goes 
out. That part of the program is not functioning. To make it 
worse, no one can tell us when it will be functioning. So what 
this leaves us with is the soft underbelly whereby people can 
go to a visa waiver country, which there are 27 of now, and 
come in just with a passport.
    What complicates this is there is so much fraudulent 
passport use, and I want to read one sentence from the GAO 
report right at the beginning: ``Stolen passports from visa 
waiver countries are prized travel documents among terrorists, 
criminals, and immigration law violators, creating an 
additional risk. While the DHS has intercepted many fraudulent 
documents at U.S. ports of entry, DHS officials acknowledge 
that an undetermined number of inadmissible aliens may have 
entered the United States using a stolen or lost passport from 
a visa waiver country.''
    Now, I am privy to intelligence data. I cannot give you the 
numbers, but I can tell you there are tens of thousands of 
these documents stolen--passports, Geneva Convention travel 
documents, and international driver's licenses. These become 
prime acquisitions for terrorists because they can simply come 
in from a visa waiver country with these documents.
    The report goes on: ``DHS has sought to require the 
reporting of lost and stolen passport data to the United States 
and the International Criminal Police Organization (Interpol), 
but it has not issued clear reporting guidelines to 
participating countries.'' My question of DHS is: Why not?
    Secondly, while most visa waiver countries participate with 
Interpol's databases, four do not. DHS is not using Interpol's 
data to its full potential as a border screening tool because 
DHS does not automatically access the data at primary 
locations. Again, why not?
    Senator Sessions and I got into the immigration bill a 
passport fraud bill, Senator Kyl, which toughened the penalties 
for passport fraud. When we began to look into it, somebody 
that had a fraudulent passport was simply given the passport 
back and let go. My view is there has to be a price for the use 
of a fraudulent passport, and it ought to be a ``go to jail 
free'' ticket. We toughened the penalties. That is part of the 
immigration bill that apparently isn't going anywhere right 
now. My thought was that you and I and the Committee might put 
this part out as a stand-alone, as we did our border tunnel 
bill, and just get it passed before we go out in October. So 
that is one thought that just germinated through my head.
    But in the 14 years I have been on this Committee and on 
the Immigration Subcommittee, we have had testimony about the 
Visa Waiver Program, and it has been one delay after the other 
in terms of setting up and getting effective the US-VISIT 
Program. I am very worried about it. We now have people who 
think, well, you will introduce a bill and let this country or 
that country come into the Visa Waiver Program. And I feel very 
strongly that if a country does not meet the statutory 
requirements for visa waiver, they should not be allowed to 
come into the program. This again, I repeat, is the soft 
underbelly.
    Now, let me comment on one other point that is coming to my 
attention, and that is the issue of cargo security aboard 
passenger planes coming into the United States. Every day 
passengers remove their shoes, take out their laptops, leave 
liquids behind, bags pass through electronic screeners, and 
everybody accepts this as a necessary inconvenience. And we 
have all stood in the lines and watched this happening, and I 
think it is one of the great things about America, that people 
just heave to and say, look, if it helps make things secure, I 
am prepared to stand there for an hour, an hour and a half. And 
so all the passengers really get my very serious commendation.
    But on some level, this provides a false sense of security. 
Recent news suggests that only 10 to 15 percent of air cargo is 
screened for explosive, even though this commercial air cargo 
gets stowed in the same compartments of passenger airplanes as 
checked luggage. This, in my view, is unacceptable and also 
unnecessary, especially given the other means of transportation 
often available for cargo transportation, including all cargo 
airplanes.
    My view is very firm. If we cannot get more cargo screened, 
we ought to prohibit it on passenger airliners and let it go 
somewhere else. But we have got to screen cargo because this, 
again, is another part of the soft underbelly of the Nation. 
And so I hope to ask some of these questions of our witnesses. 
I want to welcome them here and not prolong them any longer.
    Chairman Kyl. Thank you very much, Senator Feinstein.
    We will start with our two witnesses. We will start, Mr. 
Rosenzweig, with you and then Mr. Ahern. The clock says 5 
minutes. If you can keep it roughly to that, that would be 
great. Of course, your written statements will be included in 
the record.

  STATEMENT OF PAUL S. ROSENZWEIG, COUNSELOR TO THE ASSISTANT 
     SECRETARY FOR POLICY, AND JAYSON P. AHERN, ASSISTANT 
 COMMISSIONER, OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER 
 PROTECTION, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Rosenzweig. Thank you very much, Chairman Kyl, Senator 
Feinstein. I will keep to 5 minutes, though I will look forward 
to the questions and answers, since some of the answers to many 
of the questions you and Senator Feinstein have posed in your 
opening will take somewhat longer than 5 minutes for me to 
address.
    I am very pleased to be here today to discuss the ongoing 
efforts of the Department to prevent terrorists from entering 
the United States and posing a threat to international air 
travel. As you noted, the recently dismantled plot to blow up 
aircraft en route to the United States from Britain reinforces 
the importance of the homeland security mission. It reminds us 
not only that terrorists remain intent upon targeting air 
travel, but also of the importance of a layered approach to 
security. I will be happy to address all of the programs that 
we have spoken of in the questions and answers. In my brief 
remarks now, I would like just address the Visa Waiver and the 
PNR--Passenger Name Record--program.
    As you know, the Visa Waiver Program allows citizens from 
27 designated countries to come to this country for up to 90 
days without a visa. VWP is at the forefront of our efforts to 
facilitate international travel. Millions of people use it 
every year. It is also at the forefront of our effort to defend 
against those who would abuse America's welcoming nature.
    The program sets strict security standards for member 
countries. For instance, visa waiver country passports have to 
contain a chip with the user's biometric and biographic data, a 
requirement that has been propagated over the past several 
years. Also, VWP travelers are required to enroll in the US-
VISIT Program upon arrival, which collects their fingerprints 
and photographs and stores them. We have been moving forward on 
developing protocols for the reporting of lost and stolen 
passports, and to maybe make a bit of news, I can say that they 
have been cleared through the Government, and we anticipate 
rolling them out with an expectation of asking our EU 
colleagues to meet the new standards by April of next year. We 
have been coordinating with the Department of State on a series 
of bilateral approaches to the various countries to inform them 
of the new standards, and I will be happy to elaborate on what 
they are likely to be during our discussions.
    Just this week, as you alluded to, GAO did issue several 
reports on the Visa Waiver Program. We appreciate the GAO 
reports and their recommendations for improvement. In fact, we 
have already addressed many of the issues GAO has identified. 
We have made good progress. There is, however, still room for 
improvement, and most saliently, the current VWP program 
identifies security threats exclusively on a country-by-country 
basis. We think that, as we go forward, the program needs to 
look for security threats on a passenger-by-passenger basis. We 
look forward to working with the Senate and with our 
international partners to strengthen VWP's security features.
    The second issue I would like to mention is Passenger Name 
Records. That is airline information that tells us about a 
passenger's identity and travel plans, for example, information 
about itinerary or contact phone numbers. Federal law requires 
that airlines turn over PNR to the Department, and we currently 
collect it from 127 airlines. that number represents 
essentially every major carrier that flies to the United 
States. The depth and breadth of PNR makes it a vital tool for 
the thorough vetting of all passengers.
    As you also know, however, European officials have 
expressed misgivings about the status of the program under 
European private laws. The U.S.-EU arrangement on PNR data sets 
strict limits on our ability to share PNR information, both 
within the Department of Homeland Security and with other 
counterterrorism and law enforcement agencies. And in May of 
this year, the European Court of Justice annulled the agreement 
based upon its reading of European law. DHS is strongly of the 
belief that continued sharing of PNR data is essential for safe 
and secure international travel. At the same time, we are 
committed to making sure that air travel is not disrupted by 
these events.
    As we negotiate with our European allies for a replacement 
agreement, we will not forget the key lessons of 9/11: the 
necessity of sharing information so dots can be connected 
before attacks materialize. The two programs I have highlighted 
stand at the front and center of DHS' effort to prevent 
terrorists from entering the United States and posing a threat 
to international air travel. The information provided through 
the VWP and PNR, as well as through API and the IAP program you 
have mentioned, are essential to our homeland security efforts.
    Mr. Chairman, Senator Feinstein, I want to thank you for 
the opportunity to present this them, and I look forward to 
responding to your questions.
    Chairman Kyl. I appreciate it. You have a lot to cover, and 
5 minutes does not do it justice. We will get back to you. 
Thank you.
    Mr. Ahern?
    Mr. Ahern. Thank you very much, Chairman Kyl and Ranking 
Member Feinstein. It is my pleasure to appear before you today 
and discuss the efforts of U.S. Customs and Border Protection 
and what measures we have taken to increase the security and to 
protect the country against the threat of terrorism.
    First I would like to speak about our progress that we have 
made in enhancing security at our ports of entry, with a 
particular focus on aviation security. And, secondly, I would 
like to explain CBP's critical role in response to the recent 
threat to aviation for flights departing the United Kingdom 
destined for the United States where this plot to blow up 
commercial aircraft reinforced the threat that this country 
continues to face today.
    To put our mission in perspective, and certainly both 
Senators being from Arizona and California, you realize that 
the Border Patrol, another operating component within CBP, 
annually apprehends over 1 million illegal aliens attempting to 
enter the country illegally between our ports of entry. And 
certainly that is a considerable challenge. But I would submit 
that the activity in our Nation's ports of entry is just as 
daunting and poses other challenges. In this environment, we 
have to use risk management in order to determine which 
travelers are legitimate and law-abiding versus those that are 
attempting to circumvent laws.
    The universe is, for example, in 2005, fiscal year 2005, we 
had 431 million people, travelers applying for admission coming 
into this country at our ports of entry. And although this is a 
largely compliant population of travelers, we actually had 
565,417 people, individuals who were found to be inadmissible 
to the United States for a variety of adverse reasons. But most 
alarming is the fact that CBP detected 493 of these individuals 
to be inadmissible under suspicion of terrorist or security 
grounds. These include, in addition to the thousands of other 
arrests that we make at our ports of entry for narcotics and 
other violations of law, 7,662 criminals that were queried 
through the National Crime Information Database. And the number 
is significant as it continues to go up, but it points to one 
of the other enhancements that have been made since 9/11, and 
that is just not querying people solely on the biographic 
information but also using the biometric capabilities we now 
have at our ports of entry to identify individuals who may be 
traveling across our borders with aliases so we can actually do 
the biometric confirmation of who they are and confirm the 
warrant at that point in time.
    But speaking of the specific U.K.-U.S. threat, on August 9, 
2006, this year, we were faced with a very serious threat to 
the security of our country and its citizens, and the thwarted 
London-based attacks certainly reminded us all that we must 
remain vigilant and continue our efforts in the detection and 
apprehension of potential terrorists before they step foot on a 
plane, in advance of their departure, and in advance of their 
arrival into the United States. And as our front-line border 
agency, CBP was rapidly responding to these threats by 
immediately implementing a pre-departure vetting process on all 
flights--that is approximately 130 flights a day--from all 
airports in the U.K. that are destined to the United States.
    In order to accomplish this critical homeland security 
measure, CBP has been successful in large part due to the 
outstanding cooperation we have with our partners in the 
airline industry. In responding to these threats, we required 
the commercial carriers to provide Advance Passenger 
Information system, that data, in advance of departure, and CBP 
at our National Targeting Center then completed a thorough 
vetting of each individual against a multiplicity of systems, 
including terrorist watchlists and our Treasury Enforcement 
Communications System. This individual vetting required 
biographic information that was cued through an electronic 
swipe of the passport by the airlines overseas--again, pre-
departure. Once the vetting was complete, we then would provide 
the information back to the airlines to be able to give an all-
clear, or if those individuals were not allowed to board, that 
was then coordinated appropriately with the U.K. government 
authorities. In a recent example, 3 days ago, on September 4th, 
through this process we actually identified an individual who 
was on the no-fly list prior to departure. He was given a no-
fly and actually was turned over to the authorities in London 
before boarding for the United States.
    Just to summarize the amount of flights that have been 
vetted since the August 9th threat stream, 3,597 flights have 
been vetted coming into this country, and they were carrying 
769,000 passengers destined to the United States. Of that 
population, 20 individuals were denied boarding for terrorist 
or security grounds pre-departure. That shows how critical it 
is to get the information prior to boarding on aircrafts bound 
for the United States.
    Given this process overseas, this is why DHS and CBP 
provided the Notice of Proposed Rulemaking--and it is currently 
posted in the Federal Register--that proposed to seek the 
Advance Passenger Information 60 minutes prior to departure or 
through an Advance Quick Query process real time up to 15 
minutes prior to departure if the 60-minute requirement cannot 
be met because of transiting passengers at major international 
gateways. And this certainly is essential, as demonstrated by 
the U.K. plot, to make sure that we have this information in 
advance of departure so we can do a thorough vetting.
    I will certainly begin to summarize at this point because I 
do not want to go beyond my time, but I will be happy to talk 
about the Immigration Advisory Program that you spoke of that 
we have in three locations. We will have a fourth location up 
within a very short period of time, and we have an additional 
expansion plan for fiscal year 2007. And at this point in time, 
I will conclude and look forward to any questions you might 
have.
    [The prepared statement of Mr. Rosenzweig and Mr. Ahern 
appears as a submission for the record.]
    Chairman Kyl. Well, thank you again. There is far too much 
for you to cover everything.
    Let me begin by just focusing, Mr. Ahern, on the last thing 
you talked about. There has been some publicity about the 
problems associated with aircraft that take off where there has 
not been an adequate opportunity to vet all of the people on 
the manifest prior--or on the passenger list prior to takeoff. 
You described a rulemaking or mentioned a rulemaking that would 
expand this. Would you tell us what the status of that is, what 
you expect to come from it, and what will occur as a result?
    Mr. Ahern. Yes, sir. I would be happy to, Senator. 
Currently, the requirement that is provided to the carriers is 
to give the information, the Advance Passenger Information, 
which is all the information basically contained in a passport, 
electronically transmitted, the passenger manifest, if you 
will, so we can then run it against all our watchlisting 
systems. But, currently, that is mandatorily required 15 
minutes after--upon wheels up, 15 minutes after wheels up. That 
we have seen through many of the flight diversions that have 
occurred on aircraft bound for the United States, that is too 
late in the process. And given the current threat stream that 
we are still working right now, that clearly would have been 
too late.
    So the Notice of Proposed Rulemaking went in about 2 weeks 
before the August 9th threat, and we actually have it proposed 
for getting the information 60 minutes prior to departure, but 
also through deliberations and very exhaustive discussions with 
the airline industry, who have been very supportive of this, we 
have learned also a lot of transiting passengers in major 
international gateways, we had to take a look at how could we 
make sure we do not negatively impact the airline industry as 
we impose this new rule.
    So we were able to come up with something that still 
provided a level of security pre-departure, which is called the 
Advance Quick Query, so that we can actually get real-time 
submission and provide real-time response, but closing it out 
15 minutes pre-departure so that we still can make security 
vetting determinations prior to the aircraft pushing back.
    The public comment period closes on October the 12th. We 
will analyze those comments, and then we will move forward with 
the final implementation of the rule.
    Chairman Kyl. And that seems logical that for 95 percent of 
the passengers, there is plenty of time to get the pre-
screening done, and for the few that come in at the very last 
minute, you could do some real-time checking, and it wouldn't 
be too burdensome. I mean, that is at least the way I look at 
it. Is that the pitch you are making on the rulemaking?
    Mr. Ahern. That is exactly what we are stating at this 
point, and that again is something we have learned through a 
very deliberative process with the airlines. We do not want to 
have a negative impact on the airline industry and have the 
economic harm be created through this rulemaking process.
    Chairman Kyl. Just one more question of you. You mentioned 
the fact that there had been 20 people detained as a result of 
the interlocking checks that you described, and I will get to 
that later. But what can you say about these 20 people?
    Mr. Ahern. A lot of these individuals were people that were 
on either no-fly or watchlisted individuals. Whether they 
actually posed a threat to civil aviation security, I would not 
go into detail in this particular hearing. I could say they 
were not part of the U.K. plot. Those individuals had 
previously been disrupted by the U.K. authorities. But these 
were individuals that presented security concerns, and we 
thought it was prudent to give a denied boarding and have them 
offloaded and turned over to the U.K. authorities.
    Chairman Kyl. Okay. I did not think you could tell us much 
about them, but at least it illustrates the fact that something 
has to happen, and for the general public, who knows what 
might--some may be fine, others may not.
    Mr. Rosenzweig, you talked about the Visa Waiver Program, 
and I am going to, since that has been such an interest of 
Senator Feinstein's, leave most of that for her to get into, if 
she would like. But you talked about some new standards in 
April. Those I gather will make the passports themselves more 
secure, but would not do anything to solve the problem of, 
number one, the passports that have been stolen already, or 
manufactured; and, two, the lack of an oral interview, which is 
at least supposed to occur with the issuance of a visa and 
which sometimes can reveal information that is important for 
screening purposes. Is that correct?
    Mr. Rosenzweig. That is, I guess, one of the problems with 
speaking too quickly. I must misstated it slightly. The 
standards that DHS will be pushing out to our friends and 
colleagues in the European Union for which we will seek action 
by next April will be standards by which we ask them to do 
direct reporting of lost and stolen passports, both blanks and 
stolen issued travel documents, in a direct report to the 
United States. It will encompass both a time requirement and a 
request that they provide a 24/7 point of contact within their 
government since we need somebody that we can reach on a real-
time basis to resolve ambiguities when a document that we think 
meets--is lost or stolen is encountered by one of our CBP 
agents at the port of entry.
    So that is the standard that I was speaking about. It is 
the one that is directly responsive to the Enhanced Border 
Security Act.
    Chairman Kyl. I think you described it correctly. I mis-
described it a moment ago. And this is a problem because in the 
past we had not gotten notice from many countries of stolen 
passports. Is that correct?
    Mr. Rosenzweig. That is correct. We have been working with 
them to develop means for direct reporting, and then the 
secondary goal is the one alluded to by Senator Feinstein, 
which is to make it available at ports of entry to the CBP 
officer on the ground so that he can detail and use that on a 
minute-by-minute basis.
    Chairman Kyl. But it is still a fact that many passports 
are stolen. That is still remains a problem. And, secondly--and 
I am going to get into the interlocking other mechanisms here 
in a minute, but there is no independent interview of the 
person coming here.
    Mr. Rosenzweig. That is correct.
    Chairman Kyl. And just to illustrate the nature of this 
problem, Zacarias Moussaoui, who was the suspected 20th 
hijacker, was a French citizens, as I believe. Is that correct?
    Mr. Rosenzweig. Yes.
    Chairman Kyl. And I don't recall whether he came here under 
the Visa Waiver Program, but he could have if he did not. And I 
am getting nods of heads that yes, he did.
    There is something about this clock that is giving me far 
more time than I deserve, and I do not know quite what it is. 
So what I will do, Senator Feinstein, is turn to you if you are 
ready, and then we will come back for another round.
    Senator Feinstein. Okay. Thank you very much, Mr. Chairman.
    I think to Mr. Rosenzweig, let me ask this question: The 
GAO report concludes that the Visa Waiver Program would be 
strengthened if DHS takes certain steps, including requiring 
that all visa waiver countries provide the United States and 
Interpol with nonbiographical data from lost or stolen issued 
passports as well as blank passports, and also development of 
clear standard operating procedures for the reporting of stolen 
and lost blank and issued passports. It also recommend that DHS 
develop and implement a plan to make Interpol's stolen travel 
document database automatically available to immigration 
officers at primary inspection.
    What steps is DHS taking to implement that recommendation?
    Mr. Rosenzweig. Thank you very much for the question. The 
news is good, albeit perhaps a little delayed. On the first of 
those, the development of uniform standards for reporting, that 
is precisely the set of standards that I was speaking about 
with Senator Kyl. We expect to have those cleared out of the 
executive branch within a matter of weeks.
    Senator Feinstein. Is this the April release that you were 
talking about?
    Mr. Rosenzweig. April will be the deadline that we would be 
asking our European colleagues to meet. I expect for them to 
have these standards in hand and to be sharing them with them 
as we go through the fall, recognizing that it is not an 
instantaneous process that they can turn on on a dime. We are 
going to ask them to--
    Senator Feinstein. Why don't you give us--it might be 
useful--the operational date. When will this be operational?
    Mr. Rosenzweig. We are going to ask our European colleagues 
who are members of the Visa Waiver Program to have this done by 
April 30, 2007.
    Senator Feinstein. So it will be operational May 1?
    Mr. Rosenzweig. That is our request. Whether or not all of 
the visa waiver countries meet that deadline and how we will 
deal with--
    Senator Feinstein. I guess this is the problem. No deadline 
is ever kept, and I cannot think of one that has been kept with 
this program. So, I mean, I really think this is important, and 
I think if a visa waiver country does not want to cooperate, 
they should drop out of the system.
    I think we are in an era now where I understand airlines 
want passengers. I understand the chamber wants business, but 
American citizens do not want terrorists. And, therefore, this 
becomes much more important than anything else.
    Mr. Rosenzweig. I agree with your sentiments. We are not in 
a position to make a unilateral demand, and the only hammer we 
have is the rather stringent one of compelling a country to 
drop out, which has very significant foreign policy and--I am 
not apologist for the visa waiver countries. I think that they 
need to get with the program. But I cannot make them--
    Senator Feinstein. There ought to be statutory regulations, 
and if somebody does not want to follow them, then they drop 
out of the program. Nobody forces a country to be in the Visa 
Waiver Program.
    So, I mean, I guess people can sort of develop a great 
affront and say, ``Oh, I am appalled by this.'' But, look, this 
country has been attacked in a major way, and we care about it. 
I guess it is the largest--it is a larger loss of life than 
Pearl Harbor. So, you know, people are concerned. They do not 
want it to happen again.
    So the stolen passport becomes a very interesting terrorist 
expediter, and we have got to control it. So, I mean, my view 
is that if you run into recalcitrant countries, please--I do 
not know how Senator Kyl feels about it, but I sure feel 
strongly. I would be willing to introduce the legislation. 
Whether it would go anywhere I cannot tell you, but--
    Mr. Rosenzweig. Well, I am quite certain that this colloquy 
will find its way into the capitals of the visa waiver 
countries, and I will certainly make sure that they are aware 
that I share your concerns.
    Chairman Kyl. Senator Feinstein, would you just yield for a 
second, and then I will give you more time.
    Senator Feinstein. Yes, of course.
    Chairman Kyl. Mr. Rosenzweig, what four countries do not 
share lost or stolen passport information with Interpol?
    Mr. Rosenzweig. I have that in my briefing book, but I am 
just going to--
    Chairman Kyl. Okay. We might as well just get their names 
out right here.
    Mr. Rosenzweig. Holland, Japan, Norway, and Sweden.
    Chairman Kyl. All right. Holland, Japan, Norway, and 
Sweden.
    Mr. Rosenzweig. Yes.
    Chairman Kyl. And regarding your request in 2005 to certify 
their intention to report lost or stolen passport data to DHS, 
what countries failed to certify their intent to share that 
data?
    Mr. Rosenzweig. I do not believe any country failed to 
certify their intent to share that data.
    Chairman Kyl. All right. Double-check that for us.
    Mr. Rosenzweig. Yes, we would be happy to get back to you.
    Chairman Kyl. Okay. Thank you.
    Go ahead, Senator Feinstein.
    Senator Feinstein. Those are very good questions. Let me 
follow up. When will American inspectors at airports have full 
access to Interpol data on passports?
    Mr. Rosenzweig. That is the second part of your earlier 
question. We completed a pilot test on historical data with the 
Interpol database through something known as the Mind Mobile 
Interpol--
    Mr. Ahern. Network Database.
    Mr. Rosenzweig. Network Database. Thank you, Jay-- just 
this past July, and we are analyzing the results. That test 
actually demonstrated some operational difficulties in making a 
live connection to Interpol that need to be resolved. My goal 
would be to have those resolved, at least in theory, by the end 
of this year and then operational in the second or third 
quarter of next year. That is an aspirational goal. I should 
add--
    Senator Feinstein. Of 2006? I am writing it down, and I am 
going to get you to sign it afterwards.
    Mr. Rosenzweig. Absolutely.
    Senator Feinstein. Operational when?
    Mr. Rosenzweig. My goal is second or third quarter of next 
year, 2007.
    Mr. Ahern. Senator, if I might add a little more, give my 
colleague here a break for a second, if I might, some of the 
things that are happening I think that are important to make 
sure for the record it is reflected that we get a considerable 
amount of lost and stolen passport information directly into 
our systems today through the State Department. We also get a 
direct feed from the U.K. Government to the State Department on 
lost and stolen passports. So we have a considerable amount of 
lost and stolen passports in our system today, so that is fed 
in through the Department of State's class system into our 
integrated border inspection system. So we do have access to a 
considerable amount.
    Certainly, we look forward to getting the full link with 
Interpol, but even with Interpol, I think there is an important 
thing that we need to make sure as we go forward, and 
certainly, we realize, as does the head of Interpol, that we 
need to make sure there is a good quality data in that system, 
to make sure that it is updated and current, because a lot of 
reported lost passports get retrieved. And even in the U.K. 
flight vetting, as we were looking against some of the lost and 
stolen passport database access we do have, we found a lot of 
individuals who had reported a passport as being stolen that 
had later been retrieved, and we were then doing an interview 
with these individuals on the basis that it was a lost 
document, and they just had not reported its retrieval.
    So we need to make sure that the quality of the data that 
is put into the Interpol database and we then have access to is 
well defined and accurate and current.
    Senator Feinstein. I would be willing to make a bet that 
your numbers will not come anywhere close to the number stolen 
in a given year from EU countries that are members of the Visa 
Waiver Program.
    Mr. Ahern. I do not want to debate that fact with you. I 
just wanted to talk about where it is--
    Senator Feinstein. You do not want to do that, because it 
is a huge number. And that is really the concern because--why 
would somebody steal these passports? Only one reason: to sell 
them on the black market to somebody who could not get a 
passport legitimately.
    Mr. Ahern. That is clearly the purpose, to gain illegal 
access into some country.
    Senator Feinstein. Now, I asked the question about American 
inspectors at airports, but let me put it another way. Would 
this include all primary immigration inspectors, Mr. 
Rosenzweig? The earlier question I asked about having that 
available.
    Mr. Rosenzweig. You mean the access to the Interpol lost 
and stolen database?
    Senator Feinstein. Yes.
    Mr. Rosenzweig. In the long run, yes, as with--
    Senator Feinstein. But that is not in your date of the 
second or third quarter of next year. That is just airports.
    Mr. Rosenzweig. That would be for airports, yes.
    Senator Feinstein. Okay. Then we have ports of entry, 
shipping ports of entry.
    Mr. Rosenzweig. Yes. The plan, of course, would be to 
propagate it from air ports of entry and sea ports of entry, 
which are relatively minor and modest. But land ports of entry 
are an amazingly numerous and difficult task, and, of course, 
it requires technology, it requires an investment of a 
substantial amount of money, and it will require deployment and 
training. It will not be instantaneous.
    Senator Feinstein. Let me just conclude by thanking you for 
your work. I know it is hard because I know there are cross-
conflicts, and you are caught right in the middle of them. But 
it is just so important--this country has been such a sieve--
that we close some of those doors.
    I was telling the Senator, the Chairman, I should say, that 
even before 9/11, I had been very concerned about the misuse of 
the student visa program, and I could not get anybody's 
attention. We had some evidence that there was a lot of fraud 
going on, even a bogus school set up next door to one of our 
offices in California. You had California officials at schools 
convicted of falsifying information about foreign students 
present that were not present. And then just recently, I saw 
where 11 students from Israel did not show up at the 
university, the University of Montana, I believe it was.
    Chairman Kyl. Egypt.
    Senator Feinstein. Excuse me, Egyptian students did not 
show up at the University of Montana, which raises a whole 
question about how this program is being monitored, if, in 
fact, it is. Do you have any information on that?
    Mr. Rosenzweig. We track students through our SEVIS 
program, the Student Entry Visa Issuance System. My familiarity 
with the 11 Egyptians that you were talking about comes only 
from the same place it does with you, which is the newspaper--
or perhaps you have better information than I. I do know that 
we track them down.
    We continue through Immigration and Customs Enforcement to 
register schools within the SEVIS program as recipients of 
students. The issuance of visas to students, though, is a 
responsibility of the Department of State out in the various 
posts, and so I would probably have to defer on who is getting 
issued and what the standards are to somebody from that 
Department.
    Senator Feinstein. Would you be willing to take a look at 
it and give us a report in writing as to how it is now being 
monitored and whether, in fact, it is?
    Mr. Rosenzweig. Absolutely.
    Senator Feinstein. I think the universities finally came to 
the table and agreed to monitor students to see first, if they 
were accepted, if they came, and then to send that information 
to INS; secondly, that they remained in school and actually 
took the courses, and check--I do not know whether it was by 
quarter or by year, but it was one of the two. And I think that 
is very useful.
    We know that the student visa programs were used by 
terrorists who actually committed attacks on this country, so I 
think it is something that is well ordered.
    Mr. Rosenzweig. I would be happy to get back to you.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Feinstein.
    For either one of you, why can't DHS do more to get 
Passenger Name Record data on transatlantic flights? Going back 
to something I talked about in my opening statement.
    Mr. Rosenzweig. I think that one is in my square. We do get 
Passenger Name Record information on transatlantic flights. 
However, because of European concerns about privacy issues, the 
Department is prohibited, except on particularized case-by-case 
bases, from sharing that information with anybody outside of 
the Customs and Border Protection. So, for example, CBP cannot 
share that information with Immigration and Customs 
Enforcement, much less the FBI or other counterterrorism or 
counterintelligence agencies. That has, as Secretary Chertoff 
has said, placed some very significant limits on our ability to 
use that data to assess terrorist threats from unknown 
terrorists--cleanskins. Where we use API, Advance Passenger 
Information, for known terrorists, watchlist matching, the 
Passenger Name Record is principally of use for us in 
identifying the unknown terrorists.
    The European Court of Justice has just struck down the 
agreement that limited our ability to use Passenger Name Record 
data, and, indeed, my boss is in Europe today trying to 
negotiate a replacement.
    I have to say that European privacy concerns are tending to 
pull us to use even less of the data, if I read the members of 
their parliament correctly. That I think would be inconsistent 
with American interests in making better use of that data as a 
vital means of identifying who is coming.
    Chairman Kyl. Isn't the problem here that not everybody is 
known to be a terrorist who is a terrorist? Sometimes you have 
to put a few things together to connect the dots, as the saying 
goes, to figure out that this person is probably not somebody 
you want to allow to get on the airplane and come to the U.S., 
or at least you want to check some additional things before you 
do that. So given the fact that there is an awful lot of gray 
in here, you do need to share that data, say, with the FBI or 
someone else to say, ``Do you know anything about this person? 
Is there a problem here?'' Is that the problem? And if so, what 
can the United States do, what could the Congress do to 
persuade our European friends who are, for the most part, on 
the Visa Waiver Program that this is something they need to 
help with?
    Mr. Rosenzweig. Well, I am going to let Mr. Ahern tell you 
a little bit about the actual uses because I think that is an 
important point.
    On the second of those, that is the argument that I made as 
recently as this morning to members of the EU, that enhanced 
data sharing is the foundation of the Visa Waiver Program, and 
that our ability to get information about individuals so that 
we can target our resources better allows us to be more 
forthcoming and facilitative in the travel sphere, and that the 
converse of that is equally true.
    Jay?
    Mr. Ahern. Senator, certainly you have hit on a real 
critical issue, and that is the ability to identify individuals 
who are not watchlisted and who could be associated with 
individuals who may be. And one of the things that the 
Passenger Name Record system provides us is a research 
capability. Currently, 127 airlines that fly to the United 
States provide that information to us. That actually accounts 
for 95 percent of the air travel. Before there is any alarm 
over the 5 percent that remains, that is very small or charter 
airlines that do not have a reservation system, and so they are 
not able to comply with the existing law. But the ability to 
take it and put links and have our tactical targeters at the 
National Targeting Center or through the local targeting units 
we have throughout the country, to be able to do linking of 
individuals on reservations is critical for us for national 
security because, as we find more people look for individuals 
that are not watchlisted to try to introduce them into the 
country, it is a critical national security tool that we have 
to have.
    Chairman Kyl. Let me just ask one final question here 
relating to the additional resources that might be provided to 
the Visa Waiver Program Oversight Unit. There has been 
publicity about the small number of people at headquarters who 
are available to provide oversight, and I would be anxious to 
get your ideas about what we can do. Is it necessary for us to 
authorize something here or to appropriate more money or to 
direct that more people be put into the oversight position? 
Because, again, this is a program which is designed to operate 
to make it easy for people when you do not have the usual 
checks of, for example, the oral interview that is required for 
the visa issuance.
    Mr. Rosenzweig. I believe that at this point I am supposed 
to say the President's request for funding for fiscal year 
2007, which I believe the current appropriations bill meets, 
will, we think, cover our resource needs. We operate with full-
time staff in my office as well as several contractors who 
provide assistance. We also call upon the resources of ICE and 
CBP agents overseas to participate in the country reviews. So 
at this juncture, we are confident that the President's 
request, if fully funded, would meet our needs for the--
    Chairman Kyl. Well, how many people are in the headquarters 
right now to oversee this program?
    Mr. Rosenzweig. The Visa Oversight Unit has two full-time 
staff and--three contractors?
    Mr. Ahern. Three contractors.
    Chairman Kyl. See, that is the problem. That is the 
question I got this morning on an interview. How can they 
possibly do this with two? I said, ``Gee, I do not know. I will 
ask this afternoon.'' I mean, it seems implausible that with 
the number of millions of passengers and the difficulties--and 
we have only scratched the surface here in the brief time we 
have today discussing that--that that is an adequate number. 
And so I guess I would be curious when you say that the new 
budget submission will provide adequate resources, how many 
people will that provide? And I realize people are not 
everything. A lot of it is the technology as well. But how many 
would you have overseeing it?
    Mr. Rosenzweig. Perhaps I should clarify that the five 
people here in Washington are not the ones responsible for each 
country review. Before we review Norway's compliance or 
Brunei's compliance, we assemble a team comprised of other DHS 
employees and also contractors, give them training on the 
country conditions, and then send them out for an intensive 2-
week study of a particular country's security arrangements, 
passport issuance processes, et cetera. So the five people that 
you and I are discussing are essentially the administrative, 
bureaucratic head back here in Washington. They are not the 
arms and the legs who are responsible for all the millions of 
people. In addition, we call upon many other resources at CBP 
and in the Policy Directorate to do things like meet with 
Interpol to discuss the integration of lost or stolen--of their 
stolen travel documents database into Customs and Border 
Protection.
    Chairman Kyl. Why don't you simply, if you would, submit 
for the record a little statement that provides the 
justification or the rationale for the number of positions 
sought in the new budget submission.
    Mr. Rosenzweig. I would be happy to.
    Chairman Kyl. And any other information that you think 
would be useful to us.
    I have some additional questions I will ask you, if I 
could, for the record, and we will leave the record open for 
you to not only answer those questions, but if other members of 
the Committee have questions they might want to submit, you 
will receive those as well.
    Senator Feinstein, anything else of these witnesses?
    Senator Feinstein. No, I have nothing else. Thank you.
    Chairman Kyl. There is so much more we could go into, and I 
am sure there is a lot more you would like to tell us. We have 
another panel, and we are constrained by time. But please, if 
there are other things that you think you need to bring to our 
attention to provide a complete picture, do that as part of 
your submission in the questions that we will get to you. And I 
want to thank you both, as Senator Feinstein did, for your 
service. Please pass that on to the folks that you work with as 
well.
    Mr. Rosenzweig. Thank you.
    Mr. Ahern. Thank you.
    Chairman Kyl. Thank you very much.
    Chairman Kyl. While this panel is retiring, I will again 
mention that Jess Ford is the Director of International Affairs 
and Trade at the GAO, and we have reports and some questions of 
him, and I will allow Senator Feinstein to introduce for the 
record our other witness.
    Senator Feinstein. The Chairman has graciously asked if I 
would introduce Leon Laylagian, and I am very pleased to do so. 
He is the Executive Vice President of the Passenger-Cargo 
Security Group, which is a nonprofit trade association. He is a 
pilot of 757s and 767s, as I understand it; first officer; a 
graduate of Embry-Riddle Aeronautical University; he previously 
served the Air Line Pilots Association as a security liaison; 
and a former representative of the Coalition of Airline Pilots 
Associations and the Independent Pilot Pilots Association. He 
has also served as a member of TSA's Aviation Safety Advisory 
Committee for cargo security in 2003.
    Chairman Kyl. Thank you.
    Mr. Ford, would you like to begin? And then we will just 
turn directly to Mr. Laylagian, and then have our questions.

 STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
   TRADE, GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, D.C.

    Mr. Ford. Thank you, Mr. Chairman and Senator Feinstein. I 
will try to be brief. You have already covered some of the main 
points in our reports, which were issued on Tuesday. I am 
pleased to discuss these reports.
    In fiscal year 2005, nearly 16 million travelers entered 
the United States under the Visa Waiver Program, covering 27 
participating countries who are allowed to come here for 90 
days or less without obtaining a visa. Participating countries 
were selected because their citizens had demonstrated a pattern 
of compliance with U.S. immigration laws and the governments of 
these countries granted reciprocal visa-free travel to U.S. 
citizens. The Visa Waiver Program was created in 1986 as a 
pilot program and was made permanent by law in 2000.
    The Visa Waiver Program facilitates international travel 
for millions of foreign citizens seeking to visit the United 
States each year, creating substantial economic benefits to our 
country. However, travelers visiting the United States under 
the Visa Waiver Program can pose significant security risks, 
for example, because they are not interviewed by a consular 
officer prior to their travel. In addition, border inspectors 
at U.S. ports of entry may not know the visa waiver traveler's 
language or their local fraudulent document trends in the 
traveler's home country, nor have the time to conduct an 
extensive interview.
    Lost and stolen passports from visa waiver countries are 
highly prized among travelers seeking to conceal their true 
intent and identities and nationalities. DHS officials have 
acknowledged that an undetermined number of inadmissible aliens 
may have entered the United States using stolen or lost 
passports from a visa waiver country. In fact, passports from 
the Visa Waiver Program countries have been used illegally by 
hundreds of travelers attempting to enter the United States.
    For example, we reported that from January to June of 2005, 
approximately 300 individuals had their passports confiscated 
at the border because they were considered to be fraudulent. In 
2002, Congress mandated that the DHS review the security risks 
poses by each of the visa waiver countries' participation in 
the program at least every 2 years. In 2004, DHS conducted its 
first mandated biennial reviews of 25 of the 27 member 
countries and subsequently determined that all of them should 
remain in the program.
    However, we have identified several problems with the 
country review process. Specifically, key interagency 
stakeholders, such as the embassies overseas and DHS forensic 
document analysts, were left out of portions of the review 
process. Also, the country assessments prepared by DHS were not 
completed in a timely fashion and contained some dated 
information that did not necessarily reflect current risks. For 
example, they conducted the review from May through September 
of 2004, but did not transmit the report to Congress until 
November of 2005, over a year after these trips were taken.
    DHS has not provided sufficient resources to the Visa 
Waiver Program Oversight Unit to effectively monitor the risks 
posed by the visa waiver countries on an ongoing basis. While 
the unit developed a strategic plan to monitor the program, it 
is unable to fully implement the plan because it does not have 
enough staff and resources. In addition, DHS has not 
established Visa Waiver Program points of contact with U.S. 
embassies so that it can communicate directly with foreign 
government contacts and field officials who are best positioned 
to monitor compliance with the program's requirements and 
report on current events and issues of potential concern. 
Without this outreach, DHS is not able to leverage the existing 
resources at U.S. embassies in all visa waiver countries to 
obtain current information on potential risks, as well as the 
country's progress in addressing these risks.
    Our report identifies a number of actions that DHS has 
taken to try to mitigate some of these risks. For example, they 
terminated the use of German temporary passports under the 
program when they learned that these documents were not well 
controlled.
    In the interest of time, I am just going to quickly 
summarize our recommendations. We made several recommendations 
to the Department of Homeland Security to strengthen this 
program, including the creation of a real-time monitoring 
mechanism to improve communication between the Department and 
overseas posts; to improve additional resources for the Visa 
Waiver Program Unit so that they can conduct their mission. We 
also made a series of recommendations to mitigate the program's 
risks, including communicating clear operating standards for 
reporting lost and stolen passports. Finally, we recommended 
that the Congress consider establishing a deadline by which the 
Department must complete its biennial country assessments to 
provide more timely reporting to the Congress.
    We believe these recommendations will help strengthen the 
program, and it is essential that the Department take strong 
actions--
    Senator Feinstein. Mr. Chairman, if I may, Mr. Ford, would 
you just repeat that last recommendation once again, please?
    Mr. Ford. We recommended that the Congress consider 
establishing a deadline by which the Department would complete 
its biennial country assessments and report that information to 
Congress. And, again, that was to address the timeliness 
problem that we found with the last report they sent to you 
all. They sent it to you in November of 2005, but it was based 
on information collected in 2004, and a lot of that information 
was dated as well. So some of the information in the report you 
received was 2 to 3 years old. We think that Congress needs to 
have more up-to-date information so they have a better 
understanding of what the security risks are in these 
countries.
    Senator Feinstein. Thank you.
    Mr. Ford. With that, I think I will close, and I would be 
happy to answer of your questions.
    [The prepared statement of Mr. Ford appears as a submission 
for the record.]
    Chairman Kyl. Thanks very much. Like our previous 
witnesses, there is a lot to talk about. We do appreciate your 
succinctness and directness.
    Mr. Laylagian?

    STATEMENT OF LEON LAYLAGIAN, EXECUTIVE VICE PRESIDENT, 
        PASSENGER-CARGO SECURITY GROUP, WASHINGTON, D.C.

    Mr. Laylagian. Thank you, Chairman Kyl, Senator Feinstein. 
I thank you for the opportunity to be here today and provide 
testimony on--
    Senator Feinstein. Could you turn on your microphone, 
please? Just press that button.
    Mr. Laylagian. Thank you for the opportunity to be here 
today to provide testimony on this most important issue of 
aviation security. My name is Leon Laylagian. I am the 
Executive Vice President of the Passenger-Cargo Security Group. 
PCSG, a trade association, working with legislators, 
regulators, and aviation security professionals, is dedicated 
to providing solutions in efforts to improve aviation security. 
PCSG has a professional partnership with over 22,000 airline 
pilots, an affiliation with nearly 400,000 airline passengers, 
and numerous industry leaders. I am also an airline pilot of 17 
years with over 12,000 hours of flight time in a variety of 
aircraft, both domestically and international. I have flown for 
three passenger carriers and presently fly a Boeing 757 and 767 
for a major all-cargo airline. My airline security work began 
in 1993, and I have served in many different capacities with 
unions and grass-roots efforts to improve airline security. I 
have served on various government working groups, including the 
TSA's Aviation Security Advisory Council for cargo security in 
2003. I am also a graduate of Embry-Riddle Aeronautical 
University, also having served in the United States Navy.
    The British police foiled the recent London airline bombing 
plot and, much like the 1995 Operation Bojinka, averted mass 
murder on an unimaginable scale. The human element, 
intelligence gathering, and its proper distribution carried the 
day in both cases. However, on a day-to-day operational scale, 
available technologies are necessary tools to add important 
layers of security.
    As a working group member of the 2003 TSA Cargo ASAC, we 
waited a long time for rulemaking that falls short of reality. 
Placing the Known Shipper Program at the tip of our cargo 
security spear is not the answer. Other members of the ASAC 
hold the same discomfort with this approach, which seems to 
favor a perceived economic bias against technology application. 
In the U.S., a very small percentage of our belly-checked or 
loaded-in-belly-pits cargo undergo electronic or physical 
inspection. Some technology is transported around the country 
for use on a purely random basis, while a majority of the cargo 
relies on the Known Shipper Program, which we all know did 
nothing to prevent Charles McKinley from shipping himself from 
New York to Texas. Of course, this does not address the all-
cargo airline, which is a tragic loophole.
    On an international arena, many countries are using 
technologies to inspect significant portions of the belly 
freight loaded on passenger jets. The tools vary from high-
energy X-ray and CT scan to spectral analysis, K-9s and sub-
pressure simulation or altitude chambers.
    Two countries in particular have a proven track record over 
the last 5 years using what is now old technology for 
mitigating smuggling, contraband, and terrorist-related 
shipments. No single layer is perfect, but the combined 
strength of the multiple layers will best deflect the terrorist 
vector.
    Back to the Known Shipper Program, this has the potential 
to be a very valuable tool used to focus on which shipments 
require more scrutiny. Presently, the TSA has not required the 
development of a central database due to shipper concerns of 
proprietary information with respect to competitors. Instead of 
the green or red vetting of the program, we would recommend a 
more articulate program to include green, yellow, orange, and 
red to account for not only the origin and destination of the 
shipment, but also to address the supply chain. And those that 
handle packages in the chain should have a thorough and 
meaningful background check.
    A 40-percent electronic inspection requirement should be in 
addition to this program, coupled with a random inspection 
feature which would make an enhanced Known Shipper Program a 
very useful tool.
    As a final note on international operations, it would be of 
benefit to the American public if the TSA collaborated with our 
European counterparts and took advantage of their repeated 
offers to demonstrate to us how they employ technology 
effectively without damaging throughput or incurring a cost 
burden. Legislators such as Senator Feinstein have introduced 
language in the past to improve this segment of aviation 
security. While many of the technologies are not perfect, they 
are effective at mitigating threat. If we require spending on 
R&D for 2 years with implementation beginning 1 year following, 
we will embark on a process that will add a meaningful layer of 
security. The question is: Do we buy the computer today, or do 
we wait a few months for the improvements? The answer is: We 
need the tools now to get the job done and can ill afford doing 
nothing when we can be doing something to mitigate the threat.
    I call on Congress to enact a law that will address the 
urgent need to inspect cargo instead of relying on the 
paperwork that only addresses the chain of custody of a given 
shipment, and to provide the necessary funding to support this 
critical element of our National infrastructure.
    Thank you again, Chairman Kyl, Senator Feinstein, and I 
welcome any questions you may have.
    [The prepared statement of Mr. Laylagian appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much. I just heard an official 
this morning taking the opposite side of the issue that you 
just articulated, but it is one of these great conundrums. You 
have technology that is available today that is not the best, 
but it is what we have. And you try to get it out into the 
field, and somebody says, ``Well, but we have something just 
around the corner that is going to be a whole lot better. Why 
don't you wait?'' Of course, it is more expensive. And it is 
always a very difficult proposition as to what you put your 
money in. And then you have the long-term research into 
something really, really great for things like nuclear 
weaponry. For example, we held a hearing on that in this 
Subcommittee that you will want to look into. So, I mean, there 
is no easy answer to that question, I appreciate.
    Mr. Ford, you talked about the deadline on the visa waiver 
country assessments, and I just wonder: What is it that takes 
so long to get those done? Is it the lack of staff?
    Mr. Ford. Well, we think that is part of the problem. We do 
not think that the Oversight Unit was adequately resourced in 
conducting the review. There were a number of interagency team 
members who were involved in the process. The site visits were 
taken in--I think it was from June to September of 2004. It 
took over a year for the reports to be drafted and cleared, and 
we know that the content of the report, which is classified 
contained a lot of outdated information. And there was other 
information that subsequently was available that was not in the 
report.
    So we think for these reports to be useful to Congress, 
they should have as much current information in them as they 
possibly can. So that is one of the reasons we suggested that 
Congress may want to require that DHS, you know, speed the 
process up.
    I might add that I mentioned that they reviewed 25 of the 
27 countries. The other two countries that they did not get to, 
they began the review of that in the spring of 2005, and they 
still have not reported the results of those two countries to 
the Congress yet. So I am not so sure that they have been able 
to resolve the timeliness factor about getting this information 
quickly to the Hill.
    Chairman Kyl. I appreciate that. Could you just quickly 
tell me what you see as the security benefits of the new e-
passport for visa waiver travelers?
    Mr. Ford. I think the e-passport, because of the additional 
protections that it has in it, has the potential to ward off 
some of the risks from the old passports that can be more 
readily counterfeited or can be used--someone could take a 
blank passport that had been stolen and insert a photograph.
    The new e-passports have the new technology which makes it 
much more difficult for them to be counterfeited. The concern 
that we have, though, is that many passports are good for 10 
years, so even with the new e-passports, they may be good for 
the people who get them now, but for those people who continue 
to have the old passports, or access to them, that is where the 
risk is. And until, you know, the old passport system is 
exhausted, we are going to have a potential security risk, in 
our view.
    Chairman Kyl. Thanks very much.
    You all had to wait a long time, and then you sat through 
the first panel, and I said we would try to conclude this by 4 
o'clock, so I am going to quickly move on to Senator Feinstein 
here.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Mr. Ford, I think your report is excellent, and I really 
thank you for it. I think you point out a number of things that 
are obvious and some that are not obvious, and clearly we 
should take some action.
    You indicated that you felt that the Congress should take 
some action, and I would like to talk to Senator Kyl, and 
hopefully we will initiate something along the lines that you 
suggest.
    I would ask you, Mr. Laylagian, about the cargo inspection. 
You say that a meaningful inspection formula would require 40 
percent using electronic or physical means, 40 percent chosen 
by an enhanced Known Shipper Program. What is that?
    Mr. Laylagian. Well, it would better refine or articulate 
the Known Shipper Program to cover not only--you have the 
400,000 known shippers, but you have hundreds of thousands of 
handlers that would be involved in the movement of those 
shipments from the departure point to its arrival. And what the 
enhancement would be would be, in essence, a package profiling 
system should be collected in a central database, would be the 
best way for the TSA, I think, to manage that because they 
would have control over that information. And depending on the 
knowledge of where the departure point is, who the shippers 
are, who the ownership of those shippers are, and where it is 
going and how it is getting there, what hands are being put on 
that shipment on its way would better refine what type of 
technology application should be put on that.
    Senator Feinstein. So, in other words, you measure the 
shipment by those who touch it.
    Mr. Laylagian. That would be a big part of it, and the 
content.
    Senator Feinstein. So if you get those who touch it well 
known, then you can find danger points, either with people who 
are not well known or people who may not be reliable shippers. 
Is that the point?
    Mr. Laylagian. Yes, ma'am.
    Senator Feinstein. And then you would have the series of 
red, green, yellow, whatever the colors are, that would 
identify what the problem was.
    Mr. Laylagian. What the vetting level of the handlers might 
be. I mean, right now the background check information is not 
to a level that it should be.
    Senator Feinstein. Do you think that is more effective than 
X-ray or K-9?
    Mr. Laylagian. It is a tool; it is a layer. I mean, if you 
were trying to cover a hole in the ground and you had one pie 
plate to cover it, if it was a manhole, you would have a hard 
time preventing things from going through there. That is the 
Known Shipper Program. You have got one pie plate over that 
hole. You add different types of technologies, they are not--
none of them are perfect in their forms the way they are right 
now, but they do a reasonable job of getting that job done. You 
add two, three, four pie plates, you start mitigating, you 
start adding the layers to cover that hole and protect it. You 
are never going to make anything perfect, but right now 
essentially we are--
    Senator Feinstein. Well, let me ask you a question. This 
would be applied to all airports or major airports?
    Mr. Laylagian. It could be applied across the system, and 
it could be done effectively across the system, and it could be 
done on a risk assessment basis as to which airports you would 
choose to cover or not. There are some small airports that do 
not have the infrastructure or logistics to manage certain 
types of electronic inspection equipment. Portable systems 
might be effective for them during seasonal portions of the 
course of the year. But it may not be that way, in which case 
you would be able to make those decisions with the more refined 
Known Shipper Program, making that a better tool to make that 
call.
    Senator Feinstein. Has this been discussed with TSA?
    Mr. Laylagian. It has. It has certainly been discussed 
during the ASAC. There is an ongoing discussion right now. 
There is the freight assessment system, which has turned into 
the Cargo Working Group. It is a continuing conversation as to 
how they work those details out.
    There is a lot of resistance to setting up a central 
database, which I think is problematic for the Known Shipper 
Program. There are certain things that are hindering the 
effectiveness of the Known Shipper Program right now, and 
rather than just making it a good or bad proposition, my 
recommendation to make it more articulate by adding four steps 
rather than two, would be better able to decide which shipments 
should receive more scrutiny--shipments of sweatshirts, high-
energy X-ray, I mean, there are certain things that you should 
not be seeing in that shipment, and that would be a way of 
deciding how that tool could be better used.
    Senator Feinstein. Okay. Well, thank you. If you have any 
other--I appreciate your writing here, but if you have any 
other specific recommendations of what we might do, I think we 
would both appreciate receiving them.
    Mr. Laylagian. There are a number of aviation security 
professionals and even managers that work in the cargo arena 
for passenger carriers. If I can collect them and sit down 
together with you, I think we clearly could make 
recommendations.
    Senator Feinstein. Thank you. If you would do that, that 
would be appreciated.
    Mr. Laylagian. Yes, Senator.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you very much, and I want to thank this 
panel as well. Mr. Ford, we know where to get you, and we will 
probably be in touch with you from time to time, but we 
appreciate the report that you issued here, and your testimony 
as well. And, likewise, Mr. Laylagian, if you can get some 
recommendations to us from other folks, that would be 
appreciated, too.
    We will leave the record open--I don't know how many days, 
but a few days--for other members to submit questions to you 
and for you to submit anything else that you think would be 
useful to us. We appreciate your testimony very much, and if 
there is nothing else, then I will adjourn this meeting of the 
Subcommittee. It is adjourned.
    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T2148.001

[GRAPHIC] [TIFF OMITTED] T2148.002

[GRAPHIC] [TIFF OMITTED] T2148.003

[GRAPHIC] [TIFF OMITTED] T2148.004

[GRAPHIC] [TIFF OMITTED] T2148.005

[GRAPHIC] [TIFF OMITTED] T2148.006

[GRAPHIC] [TIFF OMITTED] T2148.007

[GRAPHIC] [TIFF OMITTED] T2148.008

[GRAPHIC] [TIFF OMITTED] T2148.009

[GRAPHIC] [TIFF OMITTED] T2148.010

[GRAPHIC] [TIFF OMITTED] T2148.011

[GRAPHIC] [TIFF OMITTED] T2148.012

[GRAPHIC] [TIFF OMITTED] T2148.013

[GRAPHIC] [TIFF OMITTED] T2148.014

[GRAPHIC] [TIFF OMITTED] T2148.015

[GRAPHIC] [TIFF OMITTED] T2148.016

[GRAPHIC] [TIFF OMITTED] T2148.017

[GRAPHIC] [TIFF OMITTED] T2148.018

[GRAPHIC] [TIFF OMITTED] T2148.019

[GRAPHIC] [TIFF OMITTED] T2148.020

[GRAPHIC] [TIFF OMITTED] T2148.021

[GRAPHIC] [TIFF OMITTED] T2148.022

[GRAPHIC] [TIFF OMITTED] T2148.023

[GRAPHIC] [TIFF OMITTED] T2148.024

[GRAPHIC] [TIFF OMITTED] T2148.025

[GRAPHIC] [TIFF OMITTED] T2148.026

[GRAPHIC] [TIFF OMITTED] T2148.027

[GRAPHIC] [TIFF OMITTED] T2148.028

[GRAPHIC] [TIFF OMITTED] T2148.029

[GRAPHIC] [TIFF OMITTED] T2148.030

[GRAPHIC] [TIFF OMITTED] T2148.031

[GRAPHIC] [TIFF OMITTED] T2148.032

[GRAPHIC] [TIFF OMITTED] T2148.033

[GRAPHIC] [TIFF OMITTED] T2148.034

[GRAPHIC] [TIFF OMITTED] T2148.035

[GRAPHIC] [TIFF OMITTED] T2148.036

[GRAPHIC] [TIFF OMITTED] T2148.037

                                 <all>

</pre></body></html>
